        OFFICE OF INSPECTOR GENERAL




Cost Benefit Analysis of Employee Transportation Subsidies




                   Inspection Report
                     OIG-IR-02-00




                                               December 20, 1999
                                                                                                                          OIG-IR-02-00

                                Cost Benefit Analysis of
                            Employee Transportation Subsidies
I.       INTRODUCTION

         A.        Background

On December 2, 1993, PL 103-72, Federal Employees Clean Air Incentives Act, was enacted “to
improve air quality and to reduce traffic congestion by providing for the establishment of programs
to encourage Federal employees to commute by means other than single-occupancy motor vehicles”.
The act provided Federal agencies with the authority to establish their own programs for
accomplishing this purpose. Options that an agency head might consider include: (1) transit passes
(i.e. cash subsidy) in addition to salary, (2) furnishing space, facilities, or services to bicyclists; and
(3) any non-monetary incentive which the agency head may otherwise offer under any other provision
of law or other authority.

         B.        Recent Developments

An additional option for mass transit subsidy programs was provided by the enactment of PL 105-78,
the Transportation Equity Act for the 21st Century (TEA-21), dated June 9, 1998. TEA-21 amended
the Internal Revenue Code 1 to allow employees to receive mass transit or van pool benefits in lieu
of current salary. This tax treatment had already been in effect for employee parking benefits.

For Federal employees, this change to the Figure 2 G13(6) VA Employee with Pre-Tax Deduction
tax code means that they can receive a Pre-
Tax deduction in the amount of qualifying       Pay         Rate Hours Standard Pay       With Pre-Tax Deduction
mass transit and van pool expenses. See      1  GS-13(6)    32.44    80         $2,595.20                      $2,595.20
Fig. 1, Line 2. The benefit to employees is  2                                            Pre-Tax Deduction       $32.50

a reduction in Federal, State, OADSI and     3
                                                Deductions
                                                           Gross Pay            $2,595.20
                                                                                          Deductions
                                                                                                               $2,562.70


Medicare taxes. See Fig.1, Lines 5-8. Total  4  Retirem     0.013        $33.74                        $33.74

take home pay actually increases because     5  OASDI       0.062       $160.90                       $158.89
                                             6  Medicare 0.015                                         $37.42
the Pre-Tax deduction is added back to net                               $37.89
                                             7  Fed Tax      0.28       $726.66                       $717.56
pay. See Fig. 1, Lines 16-17. Employer       8  State Tax 0.058         $149.22                       $147.36
agencies also benefit from a reduction in    9  Health                   $45.37                        $45.37

matching OADSI and Medicare taxes.           10 FEGLI
                                             11 FEGLI Option
                                                                          $7.76                          $7.76
                                                                                                         $4.81
                                                                                                 $4.81
                                                            12   Bonds                          $25.00                              $25.00

Under TEA-21, the limit on nontaxable mass                  13   TSP Fund                      $184.64                             $184.64

transit and van pool benefits will be                       14              Total Deductions             $1,375.99                           $1,362.53
                                                            15              Net Pay                      $1,219.21                           $1,200.17
increased from the current $65 per month                    16                                                       Add-Back Deduction        $32.50
limit to $100 per month for taxable years                   17                                                       New Net Pay             $1,232.67
                                                           The actual amount of take home pay increase will depend upon W-2 filing
                                                           status and number of withholding deductions allowed.

         1
             26 U.S.C. 132 (1999).
                                                                                         OIG-IR-02-00

beginning after December 31, 2001. TEA-21 also provides for indexing these limits for inflation after
calendar year 1999.

The TEA-21 limit on nontaxable parking benefits is currently $175 per month. This limit is also
indexed for inflation after calendar year 1999.

       C.        Commission’s Current Program

Pursuant to the authority granted by PL 103-72, the Commission established a Mass Transit Subsidy
program.2 The general requirement for participation in the program is that employees regularly
commute via mass transit and are not named as car pool members at the Commission or any other
Federal agency. The Director, Office of Facilities Management (OFM) is responsible for enrolling
and checking eligibility of participants, determining the subsidy amount, and issuing fare cards.

The Commission’s program distributes a metro fare card each month with a face value of $33 to each
of the employees in the program. As shown in Figure 2, the Commission spent $65,700 for the Mass
Transit Subsidy Program in FY 1999 and distributed 2189 Metro fare cards at a cost of $30 each.3
Since the value of the transit benefit is less than $65 a month, the entire benefit is excluded from
taxable income. Fare cards received by employees can be used directly on the Metrorail or can be
exchanged for the purchase of fares on other providers of public transportation, including MARC,
VRE, Metrobus, county and commuter buses and qualified van pool operators.


                 Figure 2 Commission’s FY 1998-1999
                           Mass Transit Subsidy Program
                  Fiscal   Budget   Actual   Total #    Avg Users
                  Year     Costs    Costs    of Cards   per month

                   1998     $60k    $59.5k    1985          165

                   1999     $72k    $65.7k    2189          182


II.    OBJECTIVE

The objective of this inspection is to define and evaluate alternatives for
transportation subsidies that the Commission may consider implementing
under the authority of PL 103-72 and in light of the amendments to the
Internal Revenue Code made by TEA-21.




       2
           USITC Administrative Notice 3001, dated May 15, 1997.
       3
           Metro provides a 10% bonus on fare cards purchased with a value greater than $20.

                                                        2
                                                                                                                     OIG-IR-02-00

III.      SCOPE AND METHODOLOGY

OIG reviewed the following laws and regulations and other applicable documents:
      •      PL 103-172, Federal Employees Clean Air Incentives Act, dated December 2, 1993, effective January 1, 1994.
      •                                                               st
             PL 105-178, Transportation Equity Act for the 21 Century, dated June 9, 1998.
      •      USITC Administrative Notice, USITC-N-3001, Mass Transit subsidy program, dated November 23, 1998.
      •      GAO Interim Order 2820.1, Transportation Benefit Program, dated July 30, 1999.
      •      Internal Revenue Code, Section 132, Certain Fringe Benefits.
      •      IRS Notice 94-3, Qualified Transportation Fringes Under Section 132(f), January 18, 1994.
      •      Department of Interior Financial Administration Memorandum No. 99-021, Guidelines for Participation in the Transportation
                    Fringe Benefit Program, effective June 1, 1999.
          •         Subject area information from the Web sites of the WMATA, U.S. Department of Transportation, State of Virginia, State of
                    Maryland and District of Columbia.


OFM provided a list of 221 employees that were initially listed as receiving mass transit subsidies in
October 1999. OIG conducted an e-mail survey of the 221 employees on November 4-17, 1999.
Employees were requested to estimate their monthly mass transit related expenses (including parking)
and provide the state in which they pay state taxes. OIG received responses from 209 employees.4
Additionally, OIG obtained from the Office of Personnel grade/step level and retirement plan type for
each of the 221 employees.

Using the survey and personnel data, a spread sheet analysis was conducted comparing the costs and
benefits of five mass transit subsidy alternatives:

    1. No subsidy (base case)
    2. Current cash subsidy ( $33 fare card per month)
    3. Maximum cash subsidy alone (up to the current $65 per month limit)
    4. Maximum Pre-Tax deduction alone (up to the current $65 per month limit)
    5. Combination of current cash subsidy and Pre-Tax deduction ($33 fare card plus a Pre-Tax
      deduction up to the current $65 per month limit)

Yearly individual and total employee benefits and agency costs for each alternative were calculated
and compared for the 209 employees. For calculation purposes, salary, tax rates and transportation
costs were assumed to be those in effect as of October 1999.

In addition, yearly employee benefits and agency costs for cash and pre-tax deduction parking subsidy
alternatives were calculated for a typical employee. The parking subsidy alternatives considered were
those that could be authorized under PL 103-72.


          4
         Four employees were removed from the list due to retirement, 2 due to hospitalization, and 3 who
had previously withdrawn from the program. Additionally, the 3 OIG employees receiving benefits were
excluded from this Inspection, to avoid the appearance of any conflict of interest.

                                                                       3
                                                                                                                                                                                   OIG-IR-02-00

IV.        FINDINGS

           A.            Survey Data                                      Figure 3 Distribution of Employees Monthly Mass Transit
                                                                                                            Expenses
General characteristics of the population of                                                      90
survey respondents in terms of grade level                                                        80
                                                                                                                                                                                            78

and locality are provided in Appendix I.                                                          70
                                                                                                                                                           68




                                                                            Number of Employees
                                                                                                                       63
                                                                                                  60

Figure 3, shows the number of employees 50
with monthly transit expenses between $0- 40
$65, between $66-$100 and greater than 30
$100. These divisions correspond to the 20
current deductible limit ($65) on 10
                                                  0
transportation fringe benefits and the limit               $0-$65                $65-$100                 >$100
that becomes effective in 2002 ($100). If                         Ranges of Monthly Mass Transit Expenses

the Commission were considering raising
the fare card subsidy level to $65 or higher, this figure shows that a large number of employees would
not qualify for the full benefit. The Commission would either have to provide these employees with
lesser valued fare cards or the employees would have to return to the Commission used fare cards
with more than $5.00 in remaining value at the end of the month. Either case would result in an
increased administrative burden. Providing an additional Pre-Tax deduction on the other hand, would
not result in a significant increase in the administrative burden because the benefit could be handled
through payroll processing. More detail on the distribution of monthly mass transit expenses is shown
in Figure 4.

Figure 4 Detailed Distribution of Employees Monthly Mass Transit Expenses
      35

                  32



      30




      25


                                21     21
                                              20
      20
                         18                          18              18



                                                             14
      15



                                                                                          10
      10
                                                                                                                                    7
                                                                                                        6       6
                                                                                                                             5
       5                                                                                                                                    4       4

                                                                                                                                                                     2
            1                                                                                                                                                   1                            1
                                                                                                                                                                             0       0               0
       0
           $30-   $40-   $50-   $60-   $70-   $80-   $90-   $100-   $110-        $120-                 $130-   $140-    $150-      $160-   $170-   $180-    $190-   $200-   $210-   $220-   $230-   $240-
           $40    $50    $60    $70    $80    $90    $100   $110    $120              $130             $140    $150         $160   $170    $180    $190     $200    $210    $220    $230    $240    $250

                                                                          Monthly Mass Transit Expenses




                                                                                                       4
                                                                                                                 OIG-IR-02-00

Figure 5, shows how the number of mass transit users participating in the program has changed
month to month since October 1998. The upward trend in mass transit usage since October 1998
would appear to indicate the Commission’s mass transit subsidy program has been successful in
meeting the goal of PL 103-72 of reducing the number of single occupancy vehicles being used to
commute to work.




Figure 5 Number of Employees Participating in Commission’s Transit Subsidy Program


     225

                                                                                                       221      221      221

     220

                                                                                             216

     215



                                                                                     209
     210



                                                         204
     205                                                             203
                                                                            202
                                                201

     200             198               198


                              195
     195    193



     190




     185



     180




     175
           Oct-98   Nov-98   Dec-98   Jan-99   Feb-99   Mar-99   Apr-99    May-99   Jun-99   Jul-99   Aug-99   Sep-99   Oct-99




                                                                 5
                                                                                      OIG-IR-02-00

        B.        Analysis of Mass Transit Subsidy Alternatives

Figure 6 provides a summary of the costs and benefits for each of the five alternatives OIG analyzed.


Figure 6 Commission Mass Transit Subsidy Alternatives
                                     Total Cash Equivalent Employee Benefits Per
                                                        Year                       Commission
            Alternatives           15% Tax Bracket 28% Tax Bracket31% Tax Bracket Cost Per Year
1 - No Subsidy                               $0.00           $0.00           $0.00        $0.00
2 - Current (Partial Cash Subsidy)      $82,764.00      $82,764.00     $82,764.00    $75,240.00
3 - Maximum Cash Subsidy Alone        $153,384.00      $153,384.00    $153,384.00 $153,384.00
4 - Maximum Pre-Tax Subsidy Alone       $40,424.24      $60,364.16     $64,965.68    ($6,250.78)
5 - Combination Cash/Pre-Tax          $101,268.61      $110,449.21    $112,567.81    $70,189.30
    Subsidy



Alternative 1 is to provide no mass transit subsidy. This alternative would save the Commission the
approximately $75, 240 5 that would be spent on transit subsidy plus the administrative costs of the
current program. However, this option does not advance the goals of PL 103-72 to reduce the
number of commuting single occupancy vehicles. Additionally, this option would likely have an
adverse effect on employee morale. This alternative should only be considered in the event the
Commission faces an extreme fiscal challenge.

Alternative 2 would maintain the Commission’s current mass transit program at the current benefit
level ($33 fare card per month). This alternative provides slightly more than half of the $65/mo.
deductible benefit currently allowed under the tax code. As shown in Figure 5, the subsidy has
provided an incentive for increased use of mass transit. This alternative also has relatively low
administrative costs. However, this alternative does not maximize allowable transportation benefits
and the Pre-Tax deduction allowed under TEA-21 allows the Commission to provide a larger benefit
at less cost.

Alternative 3 provides the maximum cash subsidy ($65/mo.) currently allowed as an excludable
benefit. As shown in Figure 7, this alternative provides the greatest total benefit to the Commission
mass transit users. As such, this is the highest incentive for employees to use mass transit. However,
this alternative also is the most costly alternative from the Commission’s standpoint. Additionally,
this alternative is more difficult and more expensive to administer than the current program, because
a significant number of employees would not qualify for the full benefit. This alternative would be
preferred in a benign fiscal environment.



        5
            209 Current Users x $30 fare card per month x 12 months = $75,240

                                                    6
                                                                                              OIG-IR-02-00

Figure 7 Average Yearly Benefit Per Employee for Mass Transit Subsidy Alternatives(28% Tax Bracket)

    800

                                                      $734.00


    700




    600

                                                                                                 $528.00


    500



                                    $396.00
    400




                                                                           $289.00
    300




    200




    100



                 $0.00
     0
            ALT 1 - No Subsidy   ALT 2 - Current   ALT 3 - Max Cash   ALT 4 - Max Pre-Tax   ALT 5 - Combination




Alternative 4 would replace the current cash subsidy with the maximum Pre-Tax deduction allowed
by TEA-21. The employee benefits for this alternative would be about 27% less than the current
cash subsidy and would be achieved entirely through reduced taxes. The amount of benefits would
increase with higher tax brackets. There would be an actual net savings to the Commission from the
base case (no subsidy) under this alternative due to a decrease in matching OADSI and Medicare
contributions. Administrative expense for this alternative would also be low because this alternative
can be implemented entirely through payroll processing. This alternative would be preferred in a
stringent fiscal environment where funds are not available for a cash subsidy.

Alternative 5 would supplement the current cash subsidy with a Pre-Tax deduction up to the
allowable limit ($65/mo.). This alternative would provide about 33% more benefits than the current
subsidy at about a 7% less cost to the Commission. Administrative costs would not be appreciably
greater because the supplementary Pre-Tax deduction can be provided through payroll processing.
The greatest advantage of this alternative is flexibility. The cash portion of the subsidy can be
increased or decreased as required by the fiscal environment with a corresponding decrease or
increase in the Pre-Tax deduction portion. If the cash portion of the subsidy had to be eliminated
entirely because of fiscal constraints, employees would still have a benefit equivalent to Alternative
4. For this reason, Alternative 5 is the best alternative for implementation by the Commission.



                                                     7
                                                                                                      OIG-IR-02-00

Appendix II provides detailed benefits levels for all employees surveyed. Figure 8, summarizes the
benefits available to a typical Commission employee under each of the 5 subsidy alternatives. In this
figure the current cash subsidy is assumed to be a monthly $33 fare card. Since the employee’s actual
mass transit expenses exceed the current deductible limit of $65 per month, the maximum subsidy,
either cash or Pre-Tax deduction, is assumed to be $65 per month. The cash subsidy plus Pre-Tax
deduction is assumed to be a monthly $33 fare card plus a Pre-Tax deduction of $32 per month.

Figure 8 Typical Employee Benefits per Year for Alternative Mass Transit Subsidies
                                                                   Alternatives
                            Alternative 1    Alternative 2         Alternative 3    Alternative 4 Alternative 5
         Benefits           No Subsidy       Current Subsidy-      Max Cash         Max Pre-Tax Cash Subsidy +
                                             Metro Fare Card       Subsidy          Deduction     Pre-Tax Deduct.

Cash Subsidy                         $0.00               $396.00          $780.00            $0.00              $396.00
FICA Savings                         $0.00                 $0.00            $0.00           $48.36               $23.81
Medicare Tax Savings                 $0.00                 $0.00            $0.00           $11.31                $5.57
Federal Tax Savings                  $0.00                 $0.00            $0.00          $218.40              $107.52
State/Local Tax Savings              $0.00                 $0.00            $0.00           $60.84               $29.95

TOTAL BENEFIT                        $0.00               $396.00          $780.00          $338.91              $562.85

Typical Employee - GS-13 Step 6, Paying for SS coverage, residing in Prince Georges County, MD., 28% Federal Tax Bracket,
$100 per month in mass transit expenses.

As indicated by Figure 8, Alternative 3 - Maximum Cash Subsidy provides the greatest benefit to this
typical employee followed in order by Alternative 5 - Cash plus Pre-Tax deduction, Alternative 2 -
Current Subsidy, Alternative 4 - Maximum Pre-Tax deduction and lastly, Alternative 1 - No Subsidy.

         C.         Parking Subsidy

Section 132 (f) of the IRS Code allows an employer to provide an employee up to $175 per month
in nontaxable benefits for qualified parking. As defined in this section, qualified parking means:
        •      Parking on or near a location from which the employee commutes to work by mass
               transit, by commuter highway vehicle or by car pool.
        •      Parking provided to an employee on or near the business premises.

Based on this definition, the Commission has the authority under PL 103-72 to establish a program
for providing a nontaxable benefit for all forms of qualified parking. This benefit can be provided
either as cash or a Pre-Tax deduction.




                                                           8
                                                                                          OIG-IR-02-00

Figure 9, summarizes the benefits and costs of cash or Pre-Tax deduction alternatives for the qualified
parking expense of a typical Commission employee at a mass transit facility. As shown, the cash
alternative provides high benefits, but at a high cost. On the other hand, the Pre-Tax deduction
alternative provides moderate benefits with an actual cost savings to the Commission. The Pre-Tax
deduction alternative is also easier and less expensive to administer than the cash alternative. As in

     Figure 9 Typical Employee Benefits per Year for Alternative Parking Subsidies
                                                          ALTERNATIVES
                                                                 Maximum        Max Pre-Tax
                    Benefit                   No Subsidy        Cash Subsidy     Deduction

      Cash Subsidy                                      $0.00       $2,100.00           $0.00
      FICA Savings                                      $0.00           $0.00         $130.20
      Medicare Tax Savings                              $0.00           $0.00          $30.45
      Federal Tax Savings                               $0.00           $0.00         $588.00
      State/Local Tax Savings                           $0.00           $0.00         $163.80


the mass transit analysis, the best alternative would be one which combines a cash subsidy with a Pre-
Tax deduction up to the allowable limit (currently $175). This would allow employees to receive
some tax reduction benefits even if the Commission were unable to provide a cash benefit. The mass
transit users in our e-mail survey were asked to list their expense for parking at mass transit facilities.
The table in Appendix III shows the employee savings and the Commission costs if a Pre-Tax
deduction were allowed for these parking expenses. As shown, the Commission would actually save
approximately $1,138 per year if a Pre-Tax deduction were allowed.

Under Administrative Notice 3702, Car Pool Program, dated April 19, 1999, the Commission has
established a program for partial subsidization of employee car pools. If the Commission established
a program for Pre-Tax deduction of qualified parking expenses, car pool participants could receive
a Pre-Tax deduction for their share of parking expense.




                                                    9
                                                                                      OIG-IR-02-00

Figure 10, shows the savings that would have been available to typical car pool participants in 1999
with a Pre-Tax deduction. Their savings would have amounted to 41% of total car pool parking
expense. In addition, the Commission’s expenses would have been reduced by 2.4%. This would
have resulted from a lower matching contribution for OADSI and Medicare taxes.

    Figure 10 Pre-Tax Deduction Savings For Commission and Typical Employee Car Pool (GS-13 VA
    residents under FERS 28% Tax Bracket)
    Expenditure       Yearly Expense Without Yearly Expense With          Yearly Savings
    Source            Pre-Tax Deduction         Pre-Tax Deduction         Amount %
    Commission                        $1,544.40                 $1,507.07 $37.33 2.42%
    Employees                           $487.92                   $285.92 $202.00 41.40%


       D.       Administrative Costs

PL 103-72 contains a stipulation that agencies will provide any mass transit subsidy benefit in the
form of vouchers where readily available. Subsequently, IRS Notice 94-3, dated January 18, 1994,
indicated that employers do not have to provide a transportation fringe in the form of transit vouchers
instead of cash, if doing so incurred “significant administrative cost”. In the specific case of the
Commission, providing the TEA-21 allowed transportation fringe in the form of fare cards would
involve significant administrative cost to the Commission for the following reasons:

•      The Commission would have to customize the fare card order every month to meet the
       varying requirements of employees.
•      The need to forecast on a month-to-month basis the revenue to be obtained from employee
       payroll deductions for the purchase of fare cards would be very difficult.
•      A revolving capital fund would have to be set up and administered to receive funds from
       employees and disburse funds for fare cards.

Because of this administrative cost, IRS Notice 94-3 allows agencies like the Commission to provide
a transportation cash benefit through payroll processing rather than through vouchers. Other
agencies, including the General Accounting Office and the Department of the Interior (DOI) (our
payroll processor), have also adopted this approach.

Administrative costs for the Commission’s current cash subsidy program are relatively low because
the current program does not have to provide a varying subsidy for employees with varying levels of
mass transit expenses. Under the current program, the Commission also does not have to collect
payroll deductions from employees to pay for fare cards. Instead, the current program uses
appropriated funds to make bulk purchases of fare cards, all of the same denomination, and hands




                                                  10
                                                                                             OIG-IR-02-00

them out on a monthly basis to employees who have completed an application form. According to
OFM, approximately 15 employee-hours per month are utilized in administering the current program.6

Adding or substituting a Pre-Tax deduction would require employees to fill out a slightly different
application form which identifies the amount of Pre-Tax deduction allowed. DOI, the Commission’s
payroll contractor, already has procedures in place for adding qualifying Pre-Tax deductions to
employee payroll processing. The only administrative procedure required of the Commission would
be for the Office of Finance and Budget accountant to enter the deduction amounts from the
completed forms into the DOI system. This is estimated to require 1 hour for every 150 forms.

III.    CONCLUSIONS

Based on our analysis, the Commission should:

1.      Modify the mass transit subsidy program to allow a Pre-Tax deduction transportation benefit
        up to the maximum allowable rate (presently $65/mo) less any cash subsidy the Commission
        may elect to provide in the form of fare cards.
2.      Establish a parking subsidy program to allow a Pre-Tax deduction transportation benefit for
        designated parking up to the maximum allowable rate (presently $175/mo) less any cash
        subsidy the Commission may elect to provide.
3.      Designate qualified parking to be subsidized under Number 2 as:
        a. Parking on or near a location from which an employee commutes to work via mass transit
        or a car pool
        b. Car pool parking on or near the Commission.




        6
            To participate in the current Mass Transit Subsidy program an employee completes and signs an
Application for Transit Benefit form certifying eligibility to receive the benefit. Near the beginning of each
month, enrolled employees are advised to pick up their fare cards from OFM. Before receiving their $33
fare card, they sign a form certifying their continuing eligibility to receive the transit subsidy.

                                                     11
Appendix I                                                                                               OIG-IR-02-00


                                           ORIGIN OF COMMISSION'S MASS TRANSIT
                                                         USERS



                                                                  WV
                                                                                         DC
                                                                  0%
                                                                                         23%
                                            VA
                                           39%




                                                                                       MD
                                                                                       38%




                                            COMMISSION'S MASS TRANSIT USERS BY GRADE LEVEL


                        60                                                                57



                        50

                                                                                                  43

                        40
  Number of Employees




                                                                                  29
                        30
                                                                                                          25


                        20                                                17
                                             15
                                                          13

                        10
                                                    5
                                     2                                                                           2
                              1
                                                                  0
                        0
                             GS-5   GS-6    GS-7   GS-8   GS-9   GS-10   GS-11   GS-12   GS-13   GS-14   GS-15   ES
        Appendix II                            Estimated Individual Employee Savings for Five Mass Transit Alternatives                            OIG-IR-02-00

                 EMPLOYEE DATA                                                            ESTIMATED EMPLOYEE SAVINGS PER YEAR ($)
                                   Monthly Allowable         ALT 1        ALT 2         ALT 3    ALT 4 -Max Pre-tax Deduction Alone ALT 5 -$33 Cash + Pre-Tax Ded.
Employee Grade Step Jurisdiction    Transit   Transit          NO         Current      Max Cash             Tax Brackets                        Tax Brackets
                                   Expense Deduction         Subsidy      Subsidy      Sub Alone   15%         28%          31%       15%          28%          31%
    1       14    8      MD            87.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
    2        9   10      MD            88.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
    3       13    7      MD           173.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
    4       12    4      DC            70.00         65.00         0.00       396.00        780.00     250.77      352.17     375.57      519.46      569.38      580.90
    5       14    8      DC            51.00         51.00         0.00       396.00        612.00     158.81      238.37     256.73      452.05      480.13      486.61
    6       13    7      VA           117.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
    7       15    7      VA            46.00         46.00         0.00       396.00        552.00     122.54      194.30     210.86      430.63      450.91      455.59
    8       12    9      MD            95.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
    9       14   10      VA           134.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   10       12    1      MD            85.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   11       13   10      MD            90.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   12        7   10      DC            46.00         46.00         0.00       396.00        552.00     143.24      215.00     231.56      436.48      456.76      461.44
   13        9    8      MD            52.00         52.00         0.00       396.00        624.00     151.32      232.44     251.16      451.29      480.93      487.77
   14       15   10      MD            70.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   15       15    6      DC            48.00         48.00         0.00       396.00        576.00     149.47      224.35     241.63      442.71      466.11      471.51
   16        9    6      VA            73.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   17       11    1      MD           143.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   18       12    9      DC            44.00         44.00         0.00       396.00        528.00     137.02      205.66     221.50      430.25      447.41      451.37
   19        9    1      VA            46.00         46.00         0.00       396.00        552.00     156.77      228.53     245.09      440.30      460.58      465.26
   20       11   10      MD           171.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   21       13    7      MD           106.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   22       12    4      VA           200.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   23        8   10      MD            73.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   24       15    5      VA            88.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   25       14    7      MD            69.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   26       14    4      DC            88.00         65.00         0.00       396.00        780.00     202.41      303.81     327.21      495.65      545.57      557.09
   27       15    6      VA           188.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   28        9    9      DC            82.00         65.00         0.00       396.00        780.00     202.41      303.81     327.21      495.65      545.57      557.09
   29       12    8      DC            60.00         60.00         0.00       396.00        720.00     186.84      280.44     302.04      480.08      522.20      531.92
   30       14   10      VA           122.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   31       15   10      VA           100.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   32       11   10      VA           125.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   33       11   11      MD            50.00         50.00         0.00       396.00        600.00     145.50      223.50     241.50      445.47      471.99      478.11
   34        7    7      MD            71.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   35       13    1      VA            94.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   36       12    1      VA            45.00         45.00         0.00       396.00        540.00     153.36      223.56     239.76      436.90      455.62      459.94
   37       13    1      MD            75.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   38       13    1      DC            51.00         51.00         0.00       396.00        612.00     196.76      276.32     294.68      465.44      493.52      500.00
   39       14    9      DC            48.00         48.00         0.00       396.00        576.00     149.47      224.35     241.63      442.71      466.11      471.51
   40       13    8      MD            65.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   41       13    1      DC            44.00         44.00         0.00       396.00        528.00     169.75      238.39     254.23      438.44      455.60      459.56
   42       13    9      MD            90.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   43       12   10      DC            62.00         62.00         0.00       396.00        744.00     193.07      289.79     312.11      486.31      531.55      541.99
   44        7    8      VA           128.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   45       13    8      VA           163.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   46       13    8      VA            46.00         46.00         0.00       396.00        552.00     122.54      194.30     210.86      430.63      450.91      455.59
   47        7   10      DC           102.00         65.00         0.00       396.00        780.00     250.77      352.17     375.57      519.46      569.38      580.90
   48       12    5      DC            89.00         65.00         0.00       396.00        780.00     250.77      352.17     375.57      519.46      569.38      580.90
   49       13    3      VA           169.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   50       14    9      MD           106.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   51       13    7      VA            80.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   52       13    3      DC            40.00         40.00         0.00       396.00        480.00     154.32      216.72     231.12      423.01      433.93      436.45
   53       14    3      MD           110.00         65.00         0.00       396.00        780.00     222.69      324.09     347.49      489.12      539.04      550.56
   54        7   10      MD            62.00         62.00         0.00       396.00        744.00     180.42      277.14     299.46      480.39      525.63      536.07
   55       15    8      MD           174.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   56       11    6      DC            46.00         46.00         0.00       396.00        552.00     143.24      215.00     231.56      436.48      456.76      461.44
   57        9   10      MD           160.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   58       14    6      VA           186.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   59       13    1      VA            57.00         57.00         0.00       396.00        684.00     194.26      283.18     303.70      477.79      515.23      523.87
   60       15    6      MD           100.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   61       13    4      VA           145.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   62       12    1      VA            48.00         48.00         0.00       396.00        576.00     163.58      238.46     255.74      447.12      470.52      475.92
   63       14   10      MD           135.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   64       15    6      MD           150.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   65       15   10      VA            61.00         61.00         0.00       396.00        732.00     162.50      257.66     279.62      470.59      514.27      524.35
   66       12    1      MD            88.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   67       12    2      MD           100.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   68       14   10      MD            86.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   69       14    2      DC            53.00         53.00         0.00       396.00        636.00     204.47      287.15     306.23      473.16      504.36      511.56
   70        9    1      NT            52.00         52.00         0.00       396.00        624.00     141.34      222.46     241.18      447.64      477.28      484.12
   71       13    1      VA            75.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   72       12    1      VA           117.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   73       13    5      DC            50.00         50.00         0.00       396.00        600.00     192.90      270.90     288.90      461.59      488.11      494.23
   74       13    5      VA            94.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   75       15    0      VA           132.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   76       14   10      DC            50.00         50.00         0.00       396.00        600.00     155.70      233.70     251.70      448.94      475.46      481.58
   77       12    1      VA            60.00         60.00         0.00       396.00        720.00     204.48      298.08     319.68      488.02      530.14      539.86
   78        9    7      DC            47.00         47.00         0.00       396.00        564.00     181.33      254.65     271.57      450.01      471.85      476.89
   79       14    4      DC            50.00         50.00         0.00       396.00        600.00     155.70      233.70     251.70      448.94      475.46      481.58
   80       14    3      MD            80.00         65.00         0.00       396.00        780.00     222.69      324.09     347.49      489.12      539.04      550.56


                                                                                       1
         Appendix II                           Estimated Individual Employee Savings for Five Mass Transit Alternatives                            OIG-IR-02-00

                  EMPLOYEE DATA                                                           ESTIMATED EMPLOYEE SAVINGS PER YEAR ($)
                                   Monthly Allowable         ALT 1        ALT 2         ALT 3    ALT 4 -Max Pre-tax Deduction Alone ALT 5 -$33 Cash + Pre-Tax Ded.
Employee Grade Step Jurisdiction    Transit   Transit          NO         Current      Max Cash             Tax Brackets                        Tax Brackets
                                   Expense Deduction         Subsidy      Subsidy      Sub Alone   15%         28%          31%       15%          28%          31%
     1
    81       14
             11    18    MD
                         DC            87.00
                                       60.00         65.00
                                                     60.00         0.00       396.00        780.00
                                                                                            720.00     189.15
                                                                                                       231.48      290.55
                                                                                                                   325.08     313.95
                                                                                                                              346.68      489.12
                                                                                                                                          500.17      539.04
                                                                                                                                                      542.29      550.56
                                                                                                                                                                  552.01
    82       15    0     DC            64.00         64.00         0.00       396.00        768.00     199.30      299.14     322.18      492.53      540.89      552.05
    83       11    1     VA            77.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
    84       13   10     VA            90.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
    85        7   10     MD           133.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
    86       13   10     MD            55.00         55.00         0.00       396.00        660.00     160.05      245.85     265.65      460.02      494.34      502.26
    87       12    2     MD           117.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
    88       15    0     VA            85.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
    89       15    6     VA            95.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
    90        7    5     MD            82.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
    91       14    8     VA           124.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
    92       14   10     MD            90.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
    93       13   10     MD           120.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
    94       14   10     VA           126.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
    95       14    1     MD           119.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
    96       11    1     DC            55.00         55.00         0.00       396.00        660.00     212.19      297.99     317.79      480.88      515.20      523.12
    97       15    2     VA            50.00         50.00         0.00       396.00        600.00     133.20      211.20     229.20      441.29      467.81      473.93
    98       13    5     MD           201.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
    99       13    3     DC            43.00         43.00         0.00       396.00        516.00     165.89      232.97     248.45      434.58      450.18      453.78
   100       11    2     VA           163.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   101       13   10     VA           116.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   102       13   10     MD            90.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   103        9   10     VA            75.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   104       13   10     MD           124.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   105       14    2     MD           111.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   106        9    7     DC            62.00         62.00         0.00       396.00        744.00     193.07      289.79     312.11      486.31      531.55      541.99
   107       15    0     VA           175.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   108        6   10     DC            68.00         65.00         0.00       396.00        780.00     250.77      352.17     375.57      519.46      569.38      580.90
   109       12    1     VA           186.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   110       15    0     VA            66.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   111       14   10     VA           124.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   112       13   10     VA           100.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   113       13   10     VA            81.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   114       11    1     MD            88.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   115       13   10     MD           137.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   116       15    8     VA           107.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   117       14    6     VA            58.00         58.00         0.00       396.00        696.00     154.51      244.99     265.87      462.60      501.60      510.60
   118       13   10     VA           130.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   119        7   10     MD           157.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   120       12   10     VA            67.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   121       14    0     VA            80.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   122       12    1     MD           120.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   123       14    2     VA           118.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   124       13   10     MD           150.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   125       14    5     MD           120.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   126        8   10     MD            80.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   127       12    1     MD           100.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   128       13   10     MD           160.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   129        8    9     MD           120.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   130       12    1     VA            47.00         47.00         0.00       396.00        564.00     160.18      233.50     250.42      443.71      465.55      470.59
   131        9   10     MD           188.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   132       13   10     MD            90.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   133       13    8     VA            94.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   134       14    0     MD           120.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   135       13    1     VA            64.00         64.00         0.00       396.00        768.00     218.11      317.95     340.99      501.65      550.01      561.17
   136       13    1     DC            44.00         44.00         0.00       396.00        528.00     169.75      238.39     254.23      438.44      455.60      459.56
   137       14    5     VA           109.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   138       14    9     VA            80.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   139        9    7     DC            64.00         64.00         0.00       396.00        768.00     199.30      299.14     322.18      492.53      540.89      552.05
   140       12    1     DC            51.00         51.00         0.00       396.00        612.00     196.76      276.32     294.68      465.44      493.52      500.00
   141        6   10     DC            71.00         65.00         0.00       396.00        780.00     202.41      303.81     327.21      495.65      545.57      557.09
   142       11    1     VA            48.00         48.00         0.00       396.00        576.00     163.58      238.46     255.74      447.12      470.52      475.92
   143       14    0     VA           118.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   144        7   10     MD            80.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   145        7    0     VA            99.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   146       15    4     MD           112.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   147       15    4     VA            46.00         46.00         0.00       396.00        552.00     122.54      194.30     210.86      430.63      450.91      455.59
   148       13    9     VA           103.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   149       12   10     MD           103.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   150       12    1     MD           108.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   151       13    8     VA           100.00         65.00         0.00       396.00        780.00     221.52      322.92     346.32      505.06      554.98      566.50
   152       11    1     VA            60.00         60.00         0.00       396.00        720.00     204.48      298.08     319.68      488.02      530.14      539.86
   153       13    5     MD           161.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   154       13    0     MD           106.00         65.00         0.00       396.00        780.00     189.15      290.55     313.95      489.12      539.04      550.56
   155       13    2     MD            75.00         65.00         0.00       396.00        780.00     237.51      338.91     362.31      512.93      562.85      574.37
   156       ES    6     MD            48.00         48.00         0.00       396.00        576.00     139.68      214.56     231.84      439.65      463.05      468.45
   157       14    6     VA           153.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   158       15    7     VA            60.00         60.00         0.00       396.00        720.00     159.84      253.44     275.04      467.93      510.05      519.77
   159       13   10     VA            67.00         65.00         0.00       396.00        780.00     173.16      274.56     297.96      481.25      531.17      542.69
   160       7    1      DC            48.00         48.00         0.00       396.00        576.00     185.18      260.06     277.34      453.87      477.27      482.67


                                                                                       2
      Appendix II                               Estimated Individual Employee Savings for Five Mass Transit Alternatives                                    OIG-IR-02-00

                 EMPLOYEE DATA                                                               ESTIMATED EMPLOYEE SAVINGS PER YEAR ($)
                                   Monthly Allowable           ALT 1        ALT 2          ALT 3    ALT 4 -Max Pre-tax Deduction Alone ALT 5 -$33 Cash + Pre-Tax Ded.
Employee Grade Step Jurisdiction    Transit   Transit            NO         Current       Max Cash             Tax Brackets                        Tax Brackets
                                   Expense Deduction           Subsidy      Subsidy       Sub Alone   15%         28%          31%       15%          28%          31%
    1
   161     14
           13     8
                 10      MD
                         DC             87.00
                                        70.00          65.00         0.00        396.00           780.00      189.15
                                                                                                              202.41      290.55
                                                                                                                          303.81      313.95
                                                                                                                                      327.21       489.12
                                                                                                                                                   495.65        539.04
                                                                                                                                                                 545.57       550.56
                                                                                                                                                                              557.09
   162     13    10      MD            130.00          65.00         0.00        396.00           780.00      189.15      290.55      313.95       489.12        539.04       550.56
   163     12     1      DC             57.00          57.00         0.00        396.00           684.00      219.91      308.83      329.35       488.59        526.03       534.67
   164     14     7      MD            143.00          65.00         0.00        396.00           780.00      189.15      290.55      313.95       489.12        539.04       550.56
   165     13     9      VA            144.00          65.00         0.00        396.00           780.00      173.16      274.56      297.96       481.25        531.17       542.69
   166     ES     5      VA            162.00          65.00         0.00        396.00           780.00      173.16      274.56      297.96       481.25        531.17       542.69
   167     14     1      DC             45.00          45.00         0.00        396.00           540.00      173.61      243.81      260.01       442.30        461.02       465.34
   168      5     1      MD            103.00          65.00         0.00        396.00           780.00      237.51      338.91      362.31       512.93        562.85       574.37
   169     13     5      VA            120.00          65.00         0.00        396.00           780.00      221.52      322.92      346.32       505.06        554.98       566.50
   170     14     6      MD             80.00          65.00         0.00        396.00           780.00      189.15      290.55      313.95       489.12        539.04       550.56
   171     11    10      MD            169.00          65.00         0.00        396.00           780.00      189.15      290.55      313.95       489.12        539.04       550.56
   172     14     3      DC             50.00          50.00         0.00        396.00           600.00      189.24      267.24      285.24       448.94        475.46       481.58
   173     13     9      VA             80.00          65.00         0.00        396.00           780.00      173.16      274.56      297.96       481.25        531.17       542.69
   174     14    10      MD             64.00          64.00         0.00        396.00           768.00      186.24      286.08      309.12       486.21        534.57       545.73
   175     14     6      DC             44.00          44.00         0.00        396.00           528.00      137.02      205.66      221.50       430.25        447.41       451.37
   176     14    10      MD            130.00          65.00         0.00        396.00           780.00      189.15      290.55      313.95       489.12        539.04       550.56
   177     13    10      DC             68.00          65.00         0.00        396.00           780.00      202.41      303.81      327.21       495.65        545.57       557.09
   178     12     6      DC             46.00          46.00         0.00        396.00           552.00      143.24      215.00      231.56       436.48        456.76       461.44
   179     13    10      VA             75.00          65.00         0.00        396.00           780.00      173.16      274.56      297.96       481.25        531.17       542.69
   180     11     1      VA            110.00          65.00         0.00        396.00           780.00      221.52      322.92      346.32       505.06        554.98       566.50
   181      8     5      VA            100.00          65.00         0.00        396.00           780.00      221.52      322.92      346.32       505.06        554.98       566.50
   182      7    10      MD            103.00          65.00         0.00        396.00           780.00      189.15      290.55      313.95       489.12        539.04       550.56
   183     12     1      DC             64.00          64.00         0.00        396.00           768.00      246.91      346.75      369.79       515.60        563.96       575.12
   184     13     8      MD            100.00          65.00         0.00        396.00           780.00      237.51      338.91      362.31       512.93        562.85       574.37
   185     13     3      VA            120.00          65.00         0.00        396.00           780.00      221.52      322.92      346.32       505.06        554.98       566.50
   186      7    10      DC             84.00          65.00         0.00        396.00           780.00      202.41      303.81      327.21       495.65        545.57       557.09
   187     15     3      VA             44.00          44.00         0.00        396.00           528.00      117.22      185.86      201.70       425.30        442.46       446.42
   188      7     1      VA            113.00          65.00         0.00        396.00           780.00      221.52      322.92      346.32       505.06        554.98       566.50
   189     13     2      DC             62.00          62.00         0.00        396.00           744.00      239.20      335.92      358.24       507.88        553.12       563.56
   190     13     7      VA             58.00          58.00         0.00        396.00           696.00      197.66      288.14      309.02       481.20        520.20       529.20
   191     13     6      VA             97.00          65.00         0.00        396.00           780.00      173.16      274.56      297.96       481.25        531.17       542.69
   192     14    10      MD            208.00          65.00         0.00        396.00           780.00      189.15      290.55      313.95       489.12        539.04       550.56
   193     14     1      VA             65.00          65.00         0.00        396.00           780.00      221.52      322.92      346.32       505.06        554.98       566.50
   194      9     1      DC             92.00          65.00         0.00        396.00           780.00      250.77      352.17      375.57       519.46        569.38       580.90
   195     14     0      VA             97.00          65.00         0.00        396.00           780.00      173.16      274.56      297.96       481.25        531.17       542.69
   196     14     0      MD            101.00          65.00         0.00        396.00           780.00      189.15      290.55      313.95       489.12        539.04       550.56
   197     15     2      DC             57.00          57.00         0.00        396.00           684.00      177.50      266.42      286.94       470.74        508.18       516.82
   198     15     0      MD            160.00          65.00         0.00        396.00           780.00      189.15      290.55      313.95       489.12        539.04       550.56
   199     12     3      WV            235.00          65.00         0.00        396.00           780.00      175.11      276.51      299.91       482.21        532.13       543.65
   200     11     9      DC             44.00          44.00         0.00        396.00           528.00      137.02      205.66      221.50       430.25        447.41       451.37
   201      8    10      MD             75.00          65.00         0.00        396.00           780.00      189.15      290.55      313.95       489.12        539.04       550.56
   202      7    10      DC             42.00          42.00         0.00        396.00           504.00      130.79      196.31      211.43       424.03        438.07       441.31
   203     12     2      MD             72.00          65.00         0.00        396.00           780.00      237.51      338.91      362.31       512.93        562.85       574.37
   204     14     6      MD            100.00          65.00         0.00        396.00           780.00      189.15      290.55      313.95       489.12        539.04       550.56
   205     11     1      DC             43.00          43.00         0.00        396.00           516.00      165.89      232.97      248.45       434.58        450.18       453.78
   206     15     0      VA            119.00          65.00         0.00        396.00           780.00      173.16      274.56      297.96       481.25        531.17       542.69
   207     11     1      VA            162.00          65.00         0.00        396.00           780.00      221.52      322.92      346.32       505.06        554.98       566.50
   208     13     8      MD            136.00          65.00         0.00        396.00           780.00      237.51      338.91      362.31       512.93        562.85       574.37
   209     12    10      VA             80.00          65.00         0.00        396.00           780.00      173.16      274.56      297.96       481.25        531.17       542.69
 TOTALS                             19,775.00      12,782.00         0.00     82,764.00       153,384.00   40,424.24   60,364.16   64,965.68   101,268.61    110,449.21   112,567.81

AVERAGE                                94.62          61.16          0.00       396.00           733.89      193.42      288.82      310.84       484.54        528.47       538.60

MEDIAN                                 88.00          65.00          0.00       396.00           780.00      189.15      290.55      313.95       489.12        539.04       550.56




                                                                                          3
Appendix III                    Estimated Employee And Commission Savings for                               OIG-IR-02-00
                               Pre-Tax Deduction of Mass Transit Parking Expense


               Employee Data                            Estimated Employee Total Savings Per Year        Commission
                                             Monthly                                                             Total
      Employee* Grade Step Jurisdiction       Parking                   Tax Brackets                          Savings
                                              Expense        15%           28%            31%                Per Year
          6         13     7         VA        $42.00         $111.89        $177.41        $192.53              $7.31
          11        13    10        MD         $35.00         $101.85        $156.45        $169.05              $6.09
          12        7     10         DC        $40.00         $124.56        $186.96        $201.36              $6.96
          14        15    10        MD         $85.00         $247.35        $379.95        $410.55             $14.79
          17        11     1        MD         $49.00         $179.05        $255.49        $273.13             $44.98
          21        13     7        MD         $92.00         $336.17        $479.69        $512.81             $84.46
          22        12     4         VA        $10.00          $34.08         $49.68         $53.28              $9.18
          23        8     10        MD         $34.00         $124.24        $177.28        $189.52             $31.21
          24        15     5         VA        $25.00          $66.60        $105.60        $114.60              $4.35
          25        14     7        MD         $34.00          $98.94        $151.98        $164.22              $5.92
          29        12     8         DC        $32.00          $99.65        $149.57        $161.09              $5.57
          33        11    11        MD         $46.00         $133.86        $205.62        $222.18              $8.00
          35        13     1         VA        $47.00         $160.18        $233.50        $250.42             $43.15
          43        12    10         DC        $40.00         $124.56        $186.96        $201.36              $6.96
          44        7      8         VA        $45.00         $153.36        $223.56        $239.76             $41.31
          45        13     8         VA        $12.00          $40.90         $59.62         $63.94             $11.02
          50        14     9        MD         $43.00         $125.13        $192.21        $207.69              $7.48
          53        14     3        MD         $10.00          $62.64         $78.24         $81.84             $35.28
          60        15     6        MD         $40.00         $116.40        $178.80        $193.20              $6.96
          61        13     4         VA        $34.00         $115.87        $168.91        $181.15             $31.21
          67        12     2        MD         $55.00         $200.97        $286.77        $306.57             $50.49
          68        14    10        MD         $55.00         $160.05        $245.85        $265.65              $9.57
          72        12     1         VA        $45.00         $153.36        $223.56        $239.76             $41.31
          74        13     5         VA        $45.00         $153.36        $223.56        $239.76             $41.31
          75        15     0         VA        $45.00         $119.88        $190.08        $206.28              $7.83
          87        12     2        MD         $40.00         $146.16        $208.56        $222.96             $36.72
          89        15     6         VA        $66.00         $175.82        $278.78        $302.54             $11.48
          90        7      5        MD         $44.00         $160.78        $229.42        $245.26             $40.39
          91        14     8         VA        $45.00         $119.88        $190.08        $206.28              $7.83
         102        13    10        MD         $75.00         $218.25        $335.25        $362.25             $13.05
         105        14     2        MD         $37.00         $135.20        $192.92        $206.24             $33.97
         111        14    10         VA        $45.00         $119.88        $190.08        $206.28              $7.83
         115        13    10        MD         $47.00         $136.77        $210.09        $227.01              $8.18
         117        14     6         VA        $70.00         $186.48        $295.68        $320.88             $12.18
         118        13    10         VA        $50.00         $133.20        $211.20        $229.20              $8.70
         124        13    10        MD         $30.00          $87.30        $134.10        $144.90              $5.22
         127        12     1        MD         $45.00         $164.43        $234.63        $250.83             $41.31
         128        13    10        MD         $50.00         $145.50        $223.50        $241.50              $8.70



                                                                                   *Employees who reported $0 parking expenses
                                                         1                                       are not listed in this Appendix.
Appendix III                      Estimated Employee And Commission Savings for                                 OIG-IR-02-00
                                 Pre-Tax Deduction of Mass Transit Parking Expense
                Employee Data                              Estimated Employee Total Savings Per Year         Commission
                                               Monthly                                                               Total
      Employee* Grade Step Jurisdiction         Parking                     Tax Brackets                          Savings
                                                Expense         15%            28%            31%                Per Year
           6
          133        13     87         VA        $42.00
                                                 $45.00          $111.89
                                                                 $119.88         $177.41
                                                                                 $190.08        $192.53
                                                                                                $206.28              $7.31
                                                                                                                     $7.83
          134        14     0         MD         $10.00           $36.54          $52.14         $55.74              $9.18
          146        15     4         MD         $45.00          $130.95         $201.15        $217.35              $7.83
          147        15     4          VA        $12.00           $31.97          $50.69         $55.01              $2.09
          149        12    10         MD         $50.00          $145.50         $223.50        $241.50              $8.70
          154        13     0         MD         $35.00          $101.85         $156.45        $169.05              $6.09
          155        13     2         MD         $34.00          $124.24         $177.28        $189.52             $31.21
          156        0      6         MD         $45.00          $130.95         $201.15        $217.35              $7.83
          170        14     6         MD         $50.00          $145.50         $223.50        $241.50              $8.70
          173        13     9          VA        $45.00          $119.88         $190.08        $206.28              $7.83
          174        14    10         MD         $50.00          $145.50         $223.50        $241.50              $8.70
          176        14    10         MD         $45.00          $130.95         $201.15        $217.35              $7.83
          180        11     1          VA        $50.00          $170.40         $248.40        $266.40             $45.90
          192        14    10         MD         $55.00          $160.05         $245.85        $265.65              $9.57
          193        14     1          VA        $45.00          $153.36         $223.56        $239.76             $41.31
          206        15     0          VA        $50.00          $133.20         $211.20        $229.20              $8.70
          208        13     8         MD         $50.00          $182.70         $260.70        $278.70             $45.90
          209        12    10          VA        $43.00          $114.55         $181.63        $197.11              $7.48
     Totals                                    $2,443.00        $7,619.58     $11,430.66     $12,310.14         $1,138.02


     Average                                     $43.00          $136.00         $204.00        $219.00             $20.00




                                                                                       *Employees who reported $0 parking expenses
                                                            2                                        are not listed in this Appendix.
